Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 1 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

May 18, 2021
Christopher M. Wolpert
Clerk of Court

JAMES E. PEARSON,
Petitioner - Appellant,
v.
WYOMING ATTORNEY GENERAL,

No. 20-8051
(D.C.No. 1:19-CV-00168-AB J)
(D. Wyo.)

Respondent - Appellee.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before MORITZ, BALDOCK, and KELLY, Circuit Judges.

Pro se prisoner James E. Pearson is serving a life sentence for aggravated arson
and attempted first-degree murder. He seeks a certificate of appealability (COA) to
appeal from the district court’s order denying his 28 U.S.C. § 2254 habeas petition. As
explained below, we deny a COA and dismiss this matter.
Background
On September 6, 2014, Pearson drove to Gillette, Wyoming in “an uncommon
automobile” to see Autumn Evans, a woman with whom he had a relationship. Pearson

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 2 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 2

v. State, 389 P.3d 794, 795 (Wyo. 2017). He picked her up from her third-floor room at
the Rodeway Inn, took her to another motel, and gave her some methamphetamine to sell.
Later, when Pearson could not find Evans, he went to her room at the Rodeway
Inn. Evans was in the room, but she hid behind the bed and “instructed a man who was
in the room with her, Cameron Means, to tell.. . Pearson that she was not there.” Id.
When Means answered the door, Pearson said he was looking for Evans “because she
needed to pay for the methamphetamine.” Id. at 796. According to Means, Pearson
seemed “agitated and tried to look ... into the room.” Id. at 800. Means said Evans was
not there.
Shortly after 1:00 a.m. on September 7, Pearson bought gasoline. About fifteen
minutes later, video cameras captured a car resembling Pearson’s car near the Rodeway
Inn.
Jolene Boos was outside the Rodeway Inn when Pearson drove up in his car and
got out. She recognized him in part because of his above-average height. He was
carrying a “reddish orange object” and looking for Evans. Id. at 800 (internal quotation
marks omitted). Pearson went inside. Boos saw him look down at her from the thirdfloor stairwell window. Not long afterward, a fire erupted, badly damaging the third
floor and injuring some of the motel’s occupants.
Investigators “recovered a burnt metal fuel can from the hallway outside of.. .
Evans’ room,” id., and they “determined that the fire had been set deliberately outside of
[her room] using gasoline as an accelerant,” id. at 796. “A patrol car video camera and
cell phone location records indicated that... Pearson left town just before the fire was
2

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 3 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 3

reported.” Id. When interviewed by police, Pearson said “he was angry because . ..
Evans had stolen methamphetamine from him.” Id. at 800.
Prosecutors charged Pearson with aggravated arson and attempted first-degree
murder (of Evans). At trial, Means testified for the State, describing his encounter with
Pearson in Evans’ doorway. On cross-examination, defense counsel pursued a theory of
alternative suspects by eliciting from Means that Evans had “scamm[ed]” other people
for drugs or money, not just Pearson, id. at 802, and that a man named Christopher
Phillips was at the motel the night of the fire and had been angry at Means. Pearson did
not testify.1 A jury found Pearson guilty as charged.
Pearson appealed to the Wyoming Supreme Court, arguing (1) there was
insufficient evidence that he intended to kill Evans; and (2) the prosecutor failed to timely
disclose immunity and plea agreements with Means. The court rejected his arguments
and affirmed his convictions.
Pearson then sought postconviction relief, claiming that appellate counsel was
ineffective for not arguing that (1) insufficient evidence supported his arson conviction;
(2) the trial court’s directive to stand violated the Fifth Amendment; and (3) trial counsel
was ineffective. The postconviction court denied relief and the Wyoming Supreme Court
summarily denied review.

i

Evans died of unrelated causes before Pearson’s trial.
3

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 4 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 4

Next, Pearson filed the instant habeas petition, advancing many of the claims he
brought in state court. The federal district court determined that Pearson’s habeas claims
lacked merit and it dismissed his petition. The court declined to issue a COA.
Discussion
I. Standards of Review
To appeal the denial of a § 2254 petition, Pearson must obtain a COA by “showing
that reasonable jurists could debate whether ... the petition should have been resolved in
a different manner or that the issues presented were adequate to deserve encouragement
to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal quotation
marks omitted). Our consideration of a COA request incorporates the Antiterrorism and
Effective Death Penalty Act’s (AEDPA’s) “deferential treatment of state court
decisions.” Dockins v. Hines, 374 F.3d 935, 938 (10th Cir. 2004).
Under AEDPA, when a state court has adjudicated the merits of a claim, a federal
court may grant habeas relief only if that state court decision “was contrary to, or
involved an unreasonable application of, clearly established Federal law,” 28 U.S.C.
§ 2254(d)(1), or “was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding,” id. § 2254(d)(2).
Because Pearson is pro se, we liberally construe his habeas petition, see Hall v.
Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991), but to the extent he seeks a COA on
claims not present in that petition, those claims are waived, see Owens v. Trammell,
792 F.3d 1234, 1246 (10th Cir. 2015).

4

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 5 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 5

II. Sufficiency of the Evidence
In resolving a sufficiency-of-the-evidence claim, a court asks “whether, after
viewing the evidence in the light most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979). In other words, “[a] reviewing court may
set aside the jury’s verdict on the ground of insufficient evidence only if no rational trier
of fact could have agreed with the jury.” Cavazos v. Smith, 565 U.S. 1, 2 (2011).
On direct appeal, the Wyoming Supreme Court “conclude[d] that the trial
evidence, when viewed in the light most favorable to the jury’s verdict, established] that
Mr. Pearson intended to kill. .. Evans when he set the fire.” Pearson, 389 P.3d at 800.2
The court explained that “Pearson was looking for ... Evans right before the fire started,”
“[h]e set the fire with an accelerant in the middle of the night directly outside of her third
floor motel room, from which she had no clear means of escape,” and “he was angry at
[her] and left town immediately after starting the fire.” Id. at 801.
The district court found no unreasonable application of Jackson and observed that
Pearson merely offered his own account of the events at issue, while complaining that the
Wyoming Supreme Court credited the prosecution’s evidence.
We conclude that the district court’s determination is not debatable. “[A] federal
court may not overturn a state court decision rejecting a sufficiency of the evidence
challenge” unless the “decision was objectively unreasonable.” Cavazos, 565 U.S. at 2

2 On direct appeal, Pearson did “not challenge the jury’s conclusion that he set the
fire.” Pearson, 389 P.3d at 799.
5

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 6 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 6

(internal quotation marks omitted). The Wyoming Supreme Court’s decision was not
objectively unreasonable in regard to the intent-to-kill element, as it cited evidence that
Pearson was angry at Evans over a drug debt and that he set a fire using a gasoline
accelerant outside her third-floor room. See Johnson v. State, 356 P.3d 767, 773 (Wyo.
2015) (stating that an attempt to commit first-degree murder requires that the defendant
“purposely and with premeditated malice took action strongly corroborative of the intent
to kill a human being”).
Although Pearson contends he “knew (or believed)” Evans was not in her room
when he set the fire, he identifies no evidence from which the jury could have reached
that conclusion. Combined Opening Br. and Appl. for COA at 17. Moreover, “a federal
habeas corpus court faced with a record of historical facts that supports conflicting
inferences must presume—even if it does not affirmatively appear in the record—that the
trier of fact resolved any such conflicts in favor of the prosecution, and must defer to that
resolution.” Jackson, 443 U.S. at 326.
We conclude a COA is not warranted regarding sufficiency of the evidence of
attempted murder.
III. Ineffective Assistance of Appellate Counsel
A.

Sufficiency of the Evidence as to the Arsonist’s Identity
In the state postconviction proceedings, Pearson complained that appellate counsel

should have argued he was not the arsonist. Although the postconviction court denied
Pearson’s petition without commenting on the claim, “we presume the court reached a
decision on the merits.” Simpson v. Carpenter, 912 F.3d 542, 583 (10th Cir. 2018)
6

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 7 of 15
Appellate Case: 20-8051 ■ Document: 010110523930

Date Filed: 05/18/2021

Page: 7

(brackets and internal quotation marks omitted). The district court apparently rejected
this claim for the same reason it rejected his sufficiency-of-the-evidence challenge to his
attempted-murder conviction—it was based on his own factual narrative.
“To succeed on an [ineffective-assistance] claim premised on the failure to raise
an issue on appeal, a petitioner must show both that (1) appellate counsel performed
deficiently in failing to raise the particular issue on appeal and (2) but for appellate
counsel’s deficient performance, there exists a reasonable probability the petitioner
would have prevailed on appeal.” Davis v. Sharp, 943 F.3d 1290, 1299 (10th Cir. 2019),
cert, denied, 141 S. Ct. 452 (2020); see also Strickland v. Washington, 466 U.S. 668, 687
(1984) (formulating the deficient-performance/prejudice test for ineffective-assistance
claims). “[I]n evaluating an argument that appellate counsel performed deficiently in
failing to raise an issue on appeal, this court typically examines the merits of the omitted
issue,” and “[i]f the omitted issue is meritless, its omission will not constitute deficient
performance.” Davis, 943 F.3d at 1299 (brackets and internal quotation marks omitted).
In his request for a COA, Pearson argues that the state’s case against him was an
“evidentiary pyramid scheme” built by “piling inference upon inference” with “no
evidentiary connection between [him] and the fire.” Combined Opening Br. and Appl.
for COA at 8. But the facts identified by the Wyoming Supreme Court—which he has
not shown were unreasonably determined in light of the evidence3—were sufficient for a

3 See Smith v. Sharp, 935 F.3d 1064, 1074 (10th Cir. 2019) (noting that a
sufficiency-of-the-evidence challenge in a habeas petition implicates both the
unreasonable application of federal law under § 2254(d)(1) and the unreasonable
determination of facts under § 2254(d)(2)), cert, denied, 141 S. Ct. 186 (2020).
7

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 8 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 8

rational jury to determine he set the fire. Specifically, when he was unable to obtain
payment for the methamphetamine he had given Evans, he purchased gasoline and
returned to the Rodeway Inn carrying an object consistent with a gas container.
According to Boos, he was looking for Evans and went to the third floor. Soon
thereafter, a gasoline-fueled fire erupted outside Evans’ room, with Pearson fleeing town
right before the fire was reported.
Given that the evidence implicated Pearson as the arsonist, appellate counsel
reasonably could have decided to omit a sufficiency-of-the-evidence claim regarding the
arsonist’s identity and instead present a sufficiency-of-the-evidence claim on the intent
element of attempted murder. See Davis, 943 F.3d at 1299 (noting that “appellate
attorneys frequently winnow out weaker claims in order to focus effectively on those
more likely to prevail” (internal quotation marks omitted)). Because “there is a[ ]
reasonable argument that [appellate] counsel satisfied Strickland's deferential standard,”
id., we deny a COA.
B.

Self-Incrimination
Pearson claimed appellate counsel should have argued his Fifth Amendment

privilege against self-incrimination was violated when he was ordered at trial to stand up
after a witness identified him as having above-average height. The postconviction court
rejected the claim, stating that the order to stand did not compel incriminating evidence
of a testimonial or communicative nature. See Gilbert v. California, 388 U.S. 263, 266
(1967) (holding that “[t]he taking of [handwriting] exemplars did not violate petitioner’s

8

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 9 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 9

Fifth Amendment privilege against self-incrimination”). The federal district court
acknowledged the claim but did not analyze it.
No “fairminded juristf ] would agree that the [postconviction] court got [this
ineffective-assistance-of-appellate-counsel claim] wrong.” Davis, 943 F.3d at 1299
(internal quotation marks omitted). See Peoples v. United States, 365 F.2d 284, 285
(10th Cir. 1966) (“Requiring a defendant to stand in court for purposes of identification is
not a violation of the Fifth Amendment.”); accord Mikus v. United States, 433 F.2d 719,
726 (2d Cir. 1970) (“[I]t is well established that a defendant may be compelled to stand
up during trial for purposes of identification and comparison, and that such compulsion
results in non-testimonial or non-communicative evidence given by a defendant which is
not protected by the Fifth Amendment privilege against self-incrimination” (citation
omitted)). Thus, a COA is not warranted.
C.

Ineffective Assistance of Trial Counsel
In the postconviction proceedings, Pearson identified five claims of ineffective

assistance of trial counsel he believed appellate counsel should have raised. The
postconviction court found no deficient performance by trial counsel and therefore no
deficient performance by appellate counsel. The federal district court summarily
concluded the claims lacked merit.
1.

Voir Dire & Opening Statements
Pearson complained in the postconviction proceedings that trial counsel informed

the jury during voir dire and opening statements that he “was involved with drugs” and
had “done time before for involvement with drugs.” R., Vol. Ill at 901, 954. The
9

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 10 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed; 05/18/2021

Page: 10

postconviction court determined that counsel did not perform deficiently because he was
attempting to ascertain bias in prospective jurors and was utilizing “a legitimate strategy
of defense in bringing to light negative information before the prosecution c[ould] frame
and elicit the information.” Id., Vol. I at 227.
Indeed, identifying anti-drug biases in a case involving a drug transaction and
lessening the sting of a prior conviction in the event the defendant testifies are legitimate
trial strategies. See Smith v. Spisak, 558 U.S. 139, 161 (2010) (Stevens J., concurring in
part and concurring in the judgment) (stating that it “is generally a reasonable” trial
strategy “to draw the sting out of the prosecution’s argument and gain credibility with the
jury by conceding the weaknesses of [counsel’s] own case”). Because Pearson’s trial
counsel pursued a legitimate defense strategy, the postconviction court did not
unreasonably apply Strickland in rejecting this claim of ineffective assistance of appellate
counsel. A COA is not warranted.4

4 Pearson, who is African-American, also argued his attorney was ineffective
during voir dire by “identifying]” with 1970’s television character Archie Bunker. R.,
Vol. Ill at 887-88. The postconviction court recognized this claim generally and rejected
it.

The trial transcript shows defense counsel was attempting to uncover potential
racial bias in the jury pool by referencing a familiar racist figure. While defense counsel
could have pursued a less racially inflammatory strategy, it is clear he was attempting to
encourage potential jurors to reveal racial bias. “The question [for ineffective-assistance
analysis] is whether an attorney’s representation amounted to incompetence under
prevailing professional norms, not whether it deviated from best practices or most
common custom.” Harrington v. Richter, 562 U.S. 86, 105 (2011) (internal quotation
marks omitted). Because there is a reasonable argument that appellate counsel satisfied
Strickland's deferential standard by omitting a meritless ineffective-assistance-of-trialcounsel claim, we deny a COA on this issue.
10

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 11 of 15
Appellate Case: 20-8051

2.

Document: 010110523930

Date Filed: 05/18/2021

Page: 11

Vehicle Testing
Pearson complained that trial counsel failed to “[bring] to the court’s attention

[that] a search of [his] vehicle using both a trained arson K9 and testing equipment...
failed to disclose any evidence of gasoline/accelerant within [his] car.” R., Vol. II at 132.
The postconviction court found no deficient performance because trial counsel had in fact
shown that no test “results... show[ed] petroleum products in the trunk ... [o]r in the
vehicle.” Id., Vol. Ill at 550 (cross-examination of police investigator); see also id. at
677 (closing argument).
In his request for a COA, Pearson argues the postconviction court erred because
the test results “cleared” him. Combined Opening Br. and Appl. for COA at 11. But the
tests did not confirm the absence of gasoline—they only failed to detect its presence. A
COA is not warranted.
3.

Cross-examination of Boos
Pearson argued that trial counsel ineffectively cross-examined Boos about her

testimony identifying him at the Roadway Inn with an orange-reddish object before the
fire. The postconviction court determined that trial counsel did not perform deficiently
because he “questioned her description [of the arsonist] to police,.. . used screen shot
images from lobby security footage to contradict the description,” and “elicited testimony
that... a number of similar looking persons [passed] through the lobby that night.” R.,
Vol. I at 226.
In his request for a COA, Pearson does not dispute the postconviction court’s
description of defense counsel’s cross-examination. Nor does he explain how that
11

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 12 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 12

cross-examination was so deficient that it prejudiced his defense and should have been
included as an argument on appeal. Accordingly, we deny a COA as to this claim.
4.

The Presence of Uniformed Firefighters in the Courtroom
Pearson argued that appellate counsel should have raised trial counsel’s failure to

exclude about a dozen uniformed firefighters from observing the final day of trial. Trial
counsel had objected to the firefighters’ presence in the audience as “highly prejudicial,”
and he moved to exclude them. Id., Vol. Ill at 525. But the trial court overruled the
objection, stating it would “monitor the situation” and enter “an appropriate order” if
their presence distracted the jury. Id. at 530.
The postconviction court addressed the claim in the context of due process, ruling
that the firefighters’ presence had not prejudiced Pearson’s right to a fair trial. See
Holbrook v. Flynn, 475 U.S. 560, 571 (1986) (finding no “unacceptable risk of prejudice
in the spectacle of four [uniformed and armed police] officers quietly sitting in the first
row of a courtroom’s spectator section”).
In his request for a COA, Pearson contends the firefighters “were there solely to
intimidate the jurors.” Combined Opening Br. and Appl. for COA at 10. But he offers
no support for that contention. Nor does he address the trial court’s determination that
the prosecution did not orchestrate the firefighters’ attendance. In short, Pearson has not
shown that the postconviction court’s rejection of this claim was contrary to, or involved
an unreasonable application of, clearly established federal law, or was based on an
unreasonable factual determination. We thus deny a COA.

12

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 13 of 15
Appellate Case: 20-8051

5.

Document: 010110523930

Date Filed: 05/18/2021

Page: 13

Alternative Suspect
Pearson complained that appellate counsel should have raised trial counsel’s

failure to present Phillips as a trial witness. Evidently, Evans told police that Phillips had
threatened to kill Means and had purchased some of Pearson’s methamphetamine while
in her room at the Roadway Inn before the fire. After Phillips left her room, he
telephoned Evans and she overheard a voice she thought was Pearson’s saying, “tell her
to come downstairs.” R., Vol. I at 208 (internal quotation marks omitted). A few
minutes later, Pearson knocked on her door and spoke with Means while Evans hid
inside. Based on these events, Pearson surmised that “he stumbled” upon a sting
operation targeting Evans or Means that may “have recorded Phillips[’] threat to kill. ..
Means as well as whomever walked by Ms. Boos immediately before the fire.” IdVol.
II at 129, 130.
The postconviction court concluded that trial counsel made a strategic decision to
not present Phillips as a witness because there was no indication his testimony would
have been helpful. Consequently, the court found that appellate counsel did not perform
deficiently by omitting the matter on appeal.3
In his COA request, Pearson repeats his suspicion that he uncovered a sting
operation that might have evidence of Phillips’ threat against Means and the identity of

5 The postconviction court also determined that appellate counsel was not
ineffective for omitting a claim that the government withheld exculpatory evidence
concerning Phillips’ communications with Evans. The court explained there was no
indication the State had withheld any such evidence. Pearson has not explained how that
decision contravenes or unreasonably applies federal law.
13

Case l:19-cv-00168-ABJ Document 32 Filed 05/18/21 Page 14 of 15
Appellate Case: 20-8051

Document: 010110523930

Date Filed: 05/18/2021

Page: 14

the individual who walked past Boos and into the motel. But Pearson has not shown that
“all fairminded jurists would agree that the state court got [this ineffective-assistance-ofappellate-counsel claim] wrong.” Davis, 943 F.3d at 1299 (internal quotation marks
omitted). In particular, trial counsel pursued an alternative-suspects theory, telling the
jury in his opening statements “that there were other people who had motive to
accomplish this crime,” including Phillips, R., Vol. Ill at 955, and cross-examining
Means about the “bad blood” with Phillips and Evans scamming other people, id. at 331.
At the same time, trial counsel avoided any potential testimony from Phillips showing
Pearson’s awareness that Evans was in the room before the fire. Thus, there is a
reasonable argument that appellate counsel did not perform deficiently by omitting this
ineffective-assistance-of-trial-counsel claim.
Conclusion
We deny a COA and dismiss this matter.
Entered for the Court

Paul J. Kelly, Jr.
Circuit Judge

14

Appendix B
US District Court
Petition for Habeas Corpus Denied

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 1 of 12
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF WYOMING
10:07 am, 8/28/20

Margaret Botkins
Clerk of Court

JAMES E. PEARSON,
Petitioner,
VS.

Case No. 19-cv-168-ABJ

WYOMING ATTORNEY GENERAL,
Respondent.

ORDER GRANTING RESPONDENT’S MOTION FOR SUMMARY JUDGMENT
AND DISMISSING PETITION FOR WRIT OF HABEAS CORPUS

This matter comes before the Court on the Petition for Writ ofHabeas Corpus filed pro
se by James E. Pearson (ECF No. 1) and the Respondent’s Motion for Summary Judgment (ECF
No. 21). Having considered the filings, applicable law, and being otherwise fully advised, the
Court finds the motion for summary judgment should be GRANTED and the petition
DISMISSED with prejudice.

BACKGROUND
The Wyoming Supreme Court, upon review of Mr. Pearson’s appeal, described the facts
of this case as follows:
On September 6, 2014, Mr. Pearson traveled from Casper to Gillette, Wyoming to
see Autumn Evans, with whom he had a sexual relationship. He picked her up
from Room 315 at the Rodeway Inn and rented a room at the Super 8 Motel. Mr.
Pearson drove an uncommon automobile, a pearl colored Chrysler 300 with a
distinctive grill and rims. This unique vehicle was later identified at significant
times and places around Gillette.
Mr. Pearson gave Ms. Evans some methamphetamine and she was supposed to
sell it to someone at a bar. She did not return from the bar, so Mr. Pearson went in
1

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 2 of 12

looking for her and was told that she had not been there. He then attempted to
locate her at the Super 8 and Rodeway Inn but did not find her. Ms. Evans was
actually in Room 315 of the Rodeway Inn when he came to the door looking for
her, but she instructed a man who was in the room with her, Cameron Means, to
tell Mr. Pearson that she was not there. She hid on the floor behind the bed while
Mr. Means spoke to Mr. Pearson. Mr. Pearson told Mr. Means he was looking for
Ms. Evans because she needed to pay for the methamphetamine.
At approximately 1:09 a.m. on September 7, 2014, Mr. Pearson purchased
gasoline. A car consistent with his was seen on video surveillance cameras near
the Rodeway Inn at approximately 1:24 a.m. Jolene Boos testified that she was
outside die motel smoking when Mr. Pearson pulled up in his car and got out. He
was carrying an object that she could not see very well and asked if “Autumn was
home.” Ms. Boos did not respond to his question. Mr. Pearson entered the motel,
and shortly thereafter, she saw him look down at her from the third floor stairwell
window. Ms. Boos testified that she could not remember the exact time she saw
Mr. Pearson, but within half an hour after seeing him, she heard “some
commotion.” She looked out and saw that someone had jumped out of a window
and landed on top of a vehicle. She then realized the motel was on fire. The fire
was reported at approximately 1:38 a.m.
The third floor of the motel was badly damaged. Ms. Evans was not injured in the
fire, but her boyfriend, Jeremy Duncan, suffered very serious injuries when he fell
or jumped from the third floor. Other occupants of the motel were also injured in
the fire. Fire investigators determined that the fire had been set deliberately
outside of Room 315 using gasoline as an accelerant. A patrol car video camera
and cell phone location records indicated that Mr. Pearson left town just before
the fire was reported.
The State charged Mr. Pearson with one count of aggravated arson and one count
of attempted first-degree murder of Ms. Evans. His jury trial began on Monday,
August 17, 2015, and ended on August 20, 2015. The Friday before trial, the State
entered into an agreement with Cameron Means giving him immunity from
prosecution for any narcotics-related crimes he would reveal during his testimony.
At 6:30 a.m. on the first day of trial, the prosecutor notified defense counsel of the
immunity agreement and a plea agreement with Mr. Means in a different case.
Defense counsel objected, claiming that, under Brady v. Maryland, 373 U.S. 83,
83 S.Ct. 1194, 10 L.Ed.2d 215 (1963) and Giglio v. United Slates, 405 U.S. 150,
154, 92 S.Ct. 763, 766, 31 L.Ed.2d 104 (1972), the State should be prohibited
from calling Mr. Means to testify because it had violated Mr. Pearson’s right to
due process by not disclosing the agreements sooner.
The district court expressed concern over the late notification, but ultimately
allowed Mr. Means to testify. It determined that the State had not violated Brady
and Giglio because the defense would have the opportunity to use the information
about Mr. Means’ agreements with the State at trial. The jury returned guilty
2

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 3 of 12

verdicts on both counts, and the district court sentenced Mr. Pearson to serve
twenty-four to twenty-eight years in prison on the aggravated arson conviction
and life without the possibility of parole on the attempted first degree murder
conviction. He filed a timely notice of appeal.
Pearson v. State, 2017 WY 19,

4-9, 389 P.3d 794, 795-96 (Wyo. 2017). Mr. Pearson argued

on appeal before the Wyoming Supreme Court that the trial court erred because (1) there was no
evidence of a specific intent to kill Ms. Evans and (2) because it should have excluded Mr.
Mean’s testimony at trial due to the late disclosure of his plea agreements and immunity. Id. at
795. On February 28, 2017, the Court affirmed Mr. Pearson’s conviction. Id. at 803.
Mr. Pearson then petitioned the Wyoming Supreme Court for a writ of certiorari, which
the Court denied on August 29, 2017. ECF No. 1 at 3. In that petition, he argued the Court’s
sufficiency of the evidence standard of review did not comply with due process requirements
established under precedent caselaw. ECF No. 15 at 5. He additionally petitioned for post­
conviction relief June 20, 2019, arguing ineffective assistance of counsel. Id. Notably, Mr.
Pearson brings many similar claims in his petition before this Court. The district court dismissed
his petition, finding Mr. Pearson’s arguments of ineffective assistance of counsel unpersuasive.
Id. at 6. Following the district court’s dismissal, he filed for a writ of review of that decision with
the Wyoming Supreme Court, which the Court denied on July 16,2019.
Now, Mr. Pearson brings his claims under a 28 U.S.C. § 2254. ECF No. 1. The
Government’s summary judgment motion urges the court to dismiss his petition with prejudice.
ECF No. 20. It summarizes the claims raised in his petition as follows:
1.
2.
3.

The Wyoming Supreme Court erroneously determined there was sufficient
evidence to support Pearson’s conviction for attempted first-degree
murder.
The evidence did not support Pearson’s arson conviction.
Pearson’s Fifth Amendment right against self-incrimination was violated
when he was ordered to stand during his trial after Boos testified that
Pearson is unusually tall.
3

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 4 of 12

4.
5.
6.
7.
8.

Trial counsel was ineffective when he informed the jury about Pearson’s
history of drugs and incarceration.
Trial counsel was ineffective for not testing Pearson’s car in order to show
the car had not carried gasoline.
Trial counsel was ineffective when cross-examining Ms. Boos.
Trial counsel failed to protect Pearson’s right to a fair trial because
uniformed firefighters attended the trial.
Trial counsel was ineffective when he did not call Mr. Phillips as a witness
at trial.

ECFNo. 21 at 4-5.
STANDARD OF REVIEW
Mr. Pearson’s petition for federal habeas coipus relief from a state conviction is governed
by the Antiterrorism and Effective Death Penalty Act of 1996, 28 U.S.C. § 2254, which
provides, in pertinent part:
(d) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with respect
to any claim that was adjudicated on the merits in State court proceedings unless
the adjudication of the claim—(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or (2) resulted in a
decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d). This standard for review of state-court rulings is “difficult to meet” and
“highly deferential.” Cullen v. Pinholster, 131 S. Ct. 1388, 1398 (2011). The petitioner bears the
burden of proof. Id. Moreover, a determination of a factual issue made by a State court shall be
presumed to be correct, and the petitioner has the burden of rebutting the presumption of
correctness by clear and convincing evidence. 28 U.S.C. § 2254(e)(1).
Federal statutory law does not address the standard for summary judgment in habeas
proceedings. Thus, the Federal Rules of Civil Procedure govern the Respondent’s motion. See
Fed. R. Civ. P. 91(a)(4)(A). The applicable rule is Fed. R. Civ. P. 56. Under this rule, summary

4

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 5 of 12

judgment is appropriate where “there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
DISCUSSION
I.

Government’s Arguments
a. Mr. Pearson’s convictions were supported by evidence, and the court’s decision
was not contrary to or an unreasonable application of federal law.
Mr. Pearson contends the Wyoming Supreme Court misapplied the standard of review,

improperly disregarding evidence. ECF No. 21 at 9. (citing Pearson, 389 P.3d at 797 (“[o]ur
duty is to determine whether a quorum of reasonable and rational individuals would, or even
could, have come to the same result as the jury actually did”). Upon review, the Wyoming
Supreme Court accepted as true all the prosecution’s evidence and drew all reasonable inferences
from that evidence. Id. This is the correct standard of review, similar to the standard employed
by federal courts in similar cases. Id. at 9-10. (citing US. v. Sharp, 749 F.3d 1267, 1275 (10th
i

Cir. 2014); Harden v. Norman, 919 F.3d 1097,1101 (8th Cir. 2019); UnitedStates v. Bates, 960
F.3d 1278, 1292 (11th Cir. 2020)).
The evidence presented by the State at trial was sufficient for the jury to conclude Mr.
Pearson had maliciously started the fire at the Rodeway Inn, demonstrating a reckless disregard
for human life. Id. at 10. Mr. Pearson’s conviction relied on the following evidence: the Fire
Marshall’s conclusion that the fire was located outside of the room Ms. Evans was staying in;
Mr. Pearson’s presence at the scene of the fire; witness testimony regarding Mr. Pearson’s
demeanor and interest in finding Ms. Evans; witness observations of Mr. Pearson the night of the
fire, including methamphetamine exchanges and Mr. Pearson holding a “reddish orange object;
video footage of an individual with similar appearances to Mr. Pearson coming down the stairs

5

?

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 6 of 12

shortly before the fire began, as well as a car identical to Mr. Pearson’s; and that Mr. Pearson
purchased gasoline immediately prior to the fire. Id. at 11 (citing Attach. A-C).
A rational trier of fact could have found the essential elements of aggravated arson were
established beyond a reasonable doubt based on the evidence that (1) a fire was intentionally
started outside of an occupied hotel, injuring the occupants, (2) Mr. Pearson and Ms. Evans were
in the midst of a drug dispute, and he knew where she was staying, (3) he purchased gasoline
before the fire, and (4) the fire started outside of Ms. Evans’ room. Id. at 12. The Court should
find Mr. Pearson’s claim that there was insufficient evidence to support his conviction fails as a
matter of law. Id.
b. The district court’s order requiring Mr. Pearson to stand at trial was not
contrary to or an unreasonable application of federal law.
The argument that requiring Mr. Pearson to stand at trial for identification similarly fails.
The Government asserts that this Court should review the state district court’s decision, since the
Wyoming Supreme Court denied Mr. Pearson’s writ without analysis. Id. at 12. In doing so, the
Court should find in accordance with the Tenth Circuit’s explicit holding that requiring a
defendant to stand during trial for identification purposes does not violate his due process rights.
Id. at 13 (citing Peoples v. U.S., 365 F.2d 284,285 (10th Cir. 1966).
c. The district court’s decision that Pearson did not receive ineffective
assistance of trial counsel is not contrary to, or an unreasonable application
of, clearly established federal law.
As to Mr. Pearson’s last arguments of ineffective assistance of counsel, the Government
argues the district court did not err in its conclusions under the Strickland test. Id. at 13 (citing
Strickland v. Washington, 466 U.S. 668, 687 (1984)). The five deficiencies Mr. Pearson relies on
for his claim of ineffective assistance of counsel are: “(1) [t]rial counsel improperly informed
the jury about Pearson’s history of drugs and incarceration, (2) [tjrial counsel failed to test
6

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 7 of 12

Pearson’s car to show that it had not carried gasoline, (3) [t]rial counsel was ineffective when
cross-examining Boos, (4) [t]riai counsel did not prevent uniformed firefighters from attending
trial, (5) [t]rial counsel failed to call Phillips to testify as a witness. Id. at 14-15. The
Government contends these were based on a reasonable trial strategy and did not result in an
unfair trial. Id. at 15. Nonetheless, the Government addresses each argument.
First, the district court did not err in finding that counsel’s decision to reference Mr.
Pearson’s history of drugs and incarceration was a legitimate defense strategy. Id. Citing Smith v.
Spisak, the Government argues this Court should find as the district court did, that counsel’s
decision to concede this weakness in Mr. Pearson’s case was a common and reasonable strategy.
558 U.S. 139,161 (2010). Further, because of the role drugs played in the State’s case, “trial
counsel was likely aware of the fact that Pearson’s drug connections would be raised at trial and
was attempting to mitigate the harm by revealing Pearson’s history in opening arguments and
framing it as an insignificant part of Pearson’s life.” Id. Counsel also tempered this information
by introducing Mr. Pearson’s positive qualities. Id. This was a reasonable trial strategy falling
within the wide range of professional competency that did not prejudice Mr. Pearson’s right to a
fair trial. Id. at 16. The district court decided the issue correctly. Id.
Second, counsel’s decision not to test Mr. Pearson’s car for gasoline did not prejudice
Mi'. Pearson because it was not a complete failure to test the prosecutor’s case. Id at 17 (citing
Bell v. Cone, 535 U.S. 685, 697 (2002) (“Complete failure occurs when ‘counsel entirely fails to
subject the prosecution’s case to meaningful adversarial testing”’)). Instead of affirmatively
testing Mr. Pearson’s car, counsel instead used the lack of testing as a method to inject
reasonable doubt into the State’s case. Id. The district court did not err in finding this did not
constitute ineffective assistance of counsel. Id.

1

J

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 8 of 12

Third, contrary to Mr. Pearson’s assertion that counsel should have spent more time
examining Jolene Boos, the Government argues counsel thoroughly challenged his testimony. Id.
at 18. Cross-examination is another matter of trial strategy, and the district court correctly
presumed counsel acted reasonably in its examination of Jolene Boos, even if counsel did not ask
every question Mr. Pearson desired. Id. (citing Long v. Roberts, 277 Fed. Appx. 801, 804 (10th
Cir. 2008) (unpublished).
Fourth, the presence of uniformed firefighters did not deprive Mr. Pearson of his right to
a fair trial. Id. At the outset, the Government notes counsel objected and was overruled twice on
this matter and the district court dismissed this claim because the mere presence of uniformed
firefighters did not prejudice Mr. Pearson. Id. In Holbrook v. Flynn, the Supreme Court held the
defendant’s right to a fair trial was not prejudiced by the presence of uniformed officers in the
front row of the courtroom. Id. (citing 475 U.S. 560, 570-71 (1986)).
Fifth, Mr. Pearson alleges counsel should have investigated or called Christopher Phillips
as a witness because he was a potential alternative suspect. Id. at 19—20. However, the district
court found there were no facts in Phillips’ proposed testimony that would have been favorable
to Mr. Pearson’s case, nor was it an unreasonable strategic decision not to call him. Id. at 20.
Similarly, the Government argues that counsel was not constitutionally obligated to call Phillips,
and this Court should give discretion to counsel’s trial strategy. Id. at 20-21. Phillips testimony,
according to the Government, “could have helped and harmed Pearson in equal measure.” Id.
Even if it was potentially helpful, the Tenth Circuit has rejected similar claims of ineffective
assistance for failing to call a witness. Id. at 20 (citing Minnerv. Kerby, 30 F.3d 1311,1317
(10th Cir. 1994)). The Court should find the district court did not err in finding these strategic
trial decisions did not constitute ineffective assistance of counsel. Id.

8

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 9 of 12

For the reasons above, the Court should grant summary judgment and dismiss Mr.
Pearson’s petition. Id. at 23.
II.

Mr. Pearson’s Response
Mr. Pearson argues there was not sufficient evidence to support his conviction. ECF No.

22 at 2. His response is largely a recitation of his own version of events. However, he fails to
clearly articulate how the district court erred in upholding his conviction or rebut the
determination of facts with clear and convincing evidence. He asserts that “the time does not fit
the crime because I was a hundred miles away from Gillette at the time of the fire.” Id. Because
Ms. Evans’ statements were unreliable and Mr. Pearson’s version of events contradicts the
evidence put on by the State, the Court should find the district court erred in upholding his
conviction. Id. A conviction cannot be upheld based on inference or a mere suspicion of guilt. Id.
at 4 (citing US. v. Rahseparicm, 231 F.3d 1267,1271 (10th Cir. 2000)).
Next, Mr. Pearson takes issue with Ms. Boos’ testimony. Id. Drawing on the perceived
inconsistencies in her testimony, he contends her statements identifying Mr. Pearson and his car
were insufficient evidence to support his conviction. Id. at 4-6. Again, he argues Mr. Phillips and
Tyler Blue should be investigated. Mat 7, He also attacks the testimony by the Fire Marshall,
arguing his findings did not support the conclusion that the fire was set in front of Room 315 or
that it was started with gasoline. Id. at 8. Mr. Pearson then asks the Court to review a list of 65
different factual issues. Id. at 10-17. In summary, he states the State relied only upon inferences
that Mr. Pearson started the fire. Id. He argues the State’s theory that “an angry drug dealer set
fire to the motel hallway trying to kill a woman who ran off with his drugs” violated his rights to
a fair trial. Id. at 17. Finally, he broadly states that no rational trier of fact could have found he

9

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 10 of 12

committed all of the elements at issue, and his ineffective assistance of counsel prejudiced his
right to a fair trial. Id.
III.

Court’s Analysis
Contrary to Mr. Pearson’s request, this Court’s role pursuant to 28 U.S.C. § 2254(d) is

not to retry his case. Under 28 U.S.C. § 2254(d), the Court can review the State court’s decisions
to determine (1) whether they were contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States; or (2)
that they resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding. 28 U.S.C. § 2254(d).
Simply stated, Mr. Pearson cannot meet this burden. It is a heavy burden, especially
where this Court is required to give great deference to the State court’s decisions. Cullen at 1398.
Many of the issues raised by Mr. Pear-son in his response are fact-specifrc, but determinations of
factual issues made by State courts are presumed to be correct. 28 U.S.C. § 2254(e)(1). In order
to succeed on his claims, Mr. Pearson would have to rebut this, presumption of correctness by
clear and convincing evidence. Id. The Court finds he has not done so. Mr. Pearson’s response to
this is a retelling of his own account of the events at issue, but he provides no evidence or
foundation to rebut the facts he seeks this Court to review in his petition. Despite the various
grounds for relief raised in his petition, it is apparent from Mr. Pearson’s response that he seeks
to rewrite the facts of the incident through this petition. Absent clear and convincing evidence,
this Court defers to the findings of the district court.
The Wyoming Supreme Court did not apply an incorrect standard of review when it
evaluated the case, accepting as true all the prosecution’s evidence and drawing all reasonable

10

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 11 of 12

inferences from that evidence. This is the correct standard, and as the Government points out, is
similar to that which federal courts utilize in similar cases. ECF No. 21 at 10.
His ineffective assistance of counsel claims also fail as a matter of law. Each point of
representation challenged by Mr. Pearson demonstrated a reasonable trial strategy falling within
the ride range of professionally competent assistance. Strickland, 466 U.S. at 668. Further, his
petition fails to include evidence or convincing argument that his right to a fair trial was
prejudiced by his counsel’s choices. Mr. Pearson cannot meet the test under Strickland to show
that but for his counsel’s errors, the outcome of his case would have been different. Id. at 670.
CONCLUSION
For the foregoing reasons, the Court finds Mr. Pearson’s § 2254 petition is not sufficient
to sustain any habeas corpus relief. A certificate of appealability may issue only if petitioner has
made a substantial showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To
make such a showing, a petitioner must show reasonable jurists could debate whether the petition
should have been resolved in a different manner, or the issues presented were adequate to
deserve encouragement to proceed further. Slack v. McDaniel, 529 U.S. 473, 484 (2000). For the
reasons previously stated herein, the Court shall not issue a certificate of appealability.

11

Case l:19-cv-00168-ABJ Document 23 Filed 08/28/20 Page 12 of 12

IT IS THEREFORE HEREBY ORDERED the Motion for Summary Judgment (ECF
No. 21) is GRANTED, and the Petition for Writ of Habeas Corpus is DISMISSED with
prejudice.
It is FURTHER ORDERED all other pending motions, if any, are DENIED as MOOT.
It is FINALLY ORDERED a certificate of appealability shall not issue,
sr
.U

Dated this /L ft' clay of August, 2020.
y

/•

/;

ALAN B. JOHNSON
UNITED STATES DISTRICT JUDGE

12

